TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                            Currency Report Data Can Be
                            a Good Source for Audit Leads



                                      September 17, 2010

                              Reference Number: 2010-30-104




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     HIGHLIGHTS


CURRENCY REPORT DATA CAN BE A                           from CTR data or for which CTR data served as
GOOD SOURCE FOR AUDIT LEADS                             a roadmap to establish a crime was committed.
                                                        Additionally, IRS examiners closed several
                                                        hundred audits that were initiated from CTR data
Highlights                                              and, in the process, recommended additional
                                                        taxes of $13.6 million.
Final Report issued on September 17,                    TIGTA evaluated 2 statistical samples of
2010                                                    individuals with currency reports totaling at least
                                                        $20,000 that were filed by financial institutions
Highlights of Reference Number: 2010-30-104             and casinos with the IRS for Tax Year 2007. In
to the Internal Revenue Service Commissioner            the first sample, 31 of 100 individuals appeared
for the Small Business/Self-Employed Division.          to have a filing requirement for Tax Year 2007,
                                                        but had not filed a tax return. TIGTA estimates
IMPACT ON TAXPAYERS                                     the 31 individuals may owe as much as
Individuals who fail to file required returns or        $417,091 in delinquent taxes, penalties, and
underreport their income can create unfair              interest. In the second sample, 17 of the
burdens on honest taxpayers and diminish the            100 individuals sampled had expenses which
public’s respect for the tax system. While              seemed too large for the gross income they
currency reports may be commonly associated             reported earning. If these 17 individuals have
with money laundering, TIGTA identified a               additional income sources that should have
number of individuals who have enough cash to           been reported, TIGTA estimates they may owe
engage in currency transactions totaling at least       as much as $163,648 in additional taxes,
$20,000, but did not file tax returns even though       penalties, and interest.
they appeared to have a filing requirement.
                                                        WHAT TIGTA RECOMMENDED
A number of other individuals engaged in similar
                                                        TIGTA recommended that, as resources
currency transactions filed tax returns, but
                                                        become available, the Director, Examination,
reported income that does not appear sufficient
                                                        Small Business/Self-Employed Division, explore
to cover their basic living expenses. The
                                                        the feasibility of making greater use of CTRs to
difference between income and expenses raises
                                                        pursue additional nonfilers and underreporters
questions about whether there are additional
                                                        for audit.
income sources that should have been reported.
                                                        IRS management agreed with the
WHY TIGTA DID THE AUDIT                                 recommendation and plans to evaluate
The objectives of this review were to determine         opportunities during their work planning process
the success the Small Business/Self-Employed            to expand audit coverage of nonfilers using CTR
Division is achieving in using currency reports to      data. However, IRS management did not
address nonfilers and underreporters and if             commit to pursuing additional potential
additional steps could be taken to further              underreporters for audit, nor did they agree with
enhance this success. The review was initiated          the outcome measure because of concerns with
as part of our Fiscal Year 2010 Annual Audit            the selection criteria used.
Plan and addresses the major management                 While TIGTA is pleased that IRS management
challenge of Tax Compliance Initiatives.                agrees with the recommendation, it is surprised
WHAT TIGTA FOUND                                        by the absence of a commitment to pursue
                                                        additional underreporters given the potential
The Internal Revenue Service (IRS) recognizes           revenue at stake. Regarding the disagreement
the benefits of using Currency Transaction              over the outcome measure, TIGTA maintains
Reports (CTR) in its criminal and civil                 that the potential $1.3 billion of increased
enforcement efforts. The IRS Criminal                   revenue is reasonable considering the
Investigation Division has obtained a number of         assumptions used to make the estimate.
convictions for tax evasion that either originated
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 17, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Currency Report Data Can Be a Good Source for
                             Audit Leads (Audit # 200930028)

 This report represents the results of our review to determine the success the Small Business/
 Self-Employed Division is achieving in using currency reports to address nonfilers and
 underreporters and if additional steps could be taken to further enhance this success. The review
 was included in our Fiscal Year 2010 Annual Audit Plan and addresses the major management
 challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                                                  Currency Report Data Can Be a
                                                   Good Source for Audit Leads




                                            Table of Contents

Background ......................................................................................................... Page 1

Results of Review .............................................................................................. Page 3
          Currency Transaction Reporting Has a Key Role in
          Tax Administration ...................................................................................... Page   3
          Currency Transaction Data May Be Useful to Pursue
          Additional Potential Nonfilers and Underreporters ..................................... Page                     5
                    Recommendation 1:.......................................................... Page 8


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Outcome Measures............................................................... Page 15
          Appendix V – Bank Secrecy Act Forms Processed by the
          Internal Revenue Service ............................................................................. Page 18
          Appendix VI – Glossary of Terms ................................................................ Page 20
          Appendix VII – Management’s Response to the Draft Report ..................... Page 21
              Currency Report Data Can Be a
               Good Source for Audit Leads




              Abbreviations

BSA     Bank Secrecy Act
CBRS    Currency Banking and Retrieval System
CTR     Currency Transaction Report
DIF     Discriminant Index Function
IRS     Internal Revenue Service
SB/SE   Small Business/Self-Employed
TY      Tax Year
                                          Currency Report Data Can Be a
                                           Good Source for Audit Leads




                                            Background

Enacted in 1970, the Bank Secrecy Act1 (BSA) authorized the Secretary of the Treasury to
establish currency reporting as an anti-money laundering mechanism to help protect the stability
of our Nation’s financial system. Since it was established, currency reporting has expanded and
taken on increased importance following the tragic events of September 11, 2001.
There are now numerous types of Currency Transaction Reports2 (CTR) that both financial and
nonfinancial institutions are required to file to report information on currency and suspicious
transactions. The documents are in turn used by law enforcement officials to assist, deter, detect,
and prosecute a range of financial crimes, such as narcotics trafficking, tax evasion, and
financing of terrorist activities.
While the Treasury Department’s Financial Crimes Enforcement Network has overall
responsibility for administering the BSA, the Internal Revenue Service (IRS) collects, stores, and
maintains the currency and suspicious activity reports filed by the financial and nonfinancial
institutions. In Calendar Year 2008, the IRS reported receiving nearly 18 million currency and
suspicious activity reports. As detailed in Appendix V, the vast majority were filed by financial
institutions to report currency transactions exceeding $10,000. Appendix V also provides
descriptions and other information about the various CTRs received by the IRS in
Calendar Year 2008.
Once received from the reporting institutions, the IRS enters CTR data into the Currency
Banking and Retrieval System (CBRS), which is a centralized database used to store and manage
the information. After the documents are entered into the CBRS, they are accessible
electronically, through the Financial Crimes Enforcement Network, to law enforcement and
regulatory agencies, both internationally and domestically. Besides collecting and storing CTRs,
the IRS has roles in BSA criminal and civil matters.
The IRS’ Criminal Investigation Division has a major role during the investigation of potential
criminal BSA violations. The Criminal Investigation Division is the IRS law enforcement
component that has long been charged with enforcing the criminal provisions of the Internal
Revenue Code and related financial crimes. In civil matters, IRS examiners may access CTR
data stored in the CBRS to assist in ongoing audits.
In addition, BSA examiners in the IRS are responsible for conducting compliance checks of
nonfinancial institutions, such as money transmitters and check cashers, for compliance with the

1
  Pub. L. No. 91-508, 84 Stat. 1114 (1970) (codified as amended in scattered sections of 12 U.S.C., 18 U.S.C., and
31 U.S.C.). Regulations for the Bank Secrecy Act and other related statutes are 31 C.F.R. §§ 103.11-103.77 (2009).
2
  The acronym CTR is being used in this report to identify all types of currency reports shown in Appendix V.
                                                                                                          Page 1
                                    Currency Report Data Can Be a
                                     Good Source for Audit Leads



BSA. During these checks, BSA examiners may encounter large and suspicious currency
transactions between the businesses and their customers that may have material income tax
compliance potential. If so, the BSA examiner is to prepare a referral. The referral is forwarded
to the Program and Special Planning section within the Small Business/Self-Employed (SB/SE)
Division, where it is evaluated to determine if individuals’ income tax returns may warrant an
audit.
This review was performed in the SB/SE Division’s Examination and Fraud/BSA Programs in
New Carrollton, Maryland, and Detroit, Michigan, during the period October 2009 through
May 2010. Except for not auditing IRS databases to validate the accuracy and reliability of the
information and evaluating the adequacy of IRS internal controls over the various CTR forms,
this audit was conducted in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objectives,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                           Page 2
                                    Currency Report Data Can Be a
                                     Good Source for Audit Leads




                                Results of Review

While the IRS has experienced success using CTR data in its enforcement efforts, our samples of
CTRs show the documents may provide additional audit leads for the Examination function. We
identified a number of individuals who have enough cash to engage in currency transactions
totaling at least $20,000, but did not file tax returns even though they appear to have a filing
requirement.
A number of other individuals engaged in similar currency transactions filed tax returns, but
reported income that does not appear sufficient to cover their basic living expenses. The
differences between income and expenses for these individuals raise questions about whether
there are additional income sources that should have been reported to cover the expenses.

Currency Transaction Reporting Has a Key Role in Tax Administration
CTRs may be commonly associated with money laundering investigations and used as a tool for
identifying and intercepting terrorist funding. However, the IRS recognizes the potential benefits
of incorporating CTRs into its criminal and civil enforcement efforts. The IRS Criminal
Investigation Division has obtained a number of convictions for tax evasion that either originated
from CTR data or for which CTR data served as a roadmap to establish that a crime was
committed. Additionally, IRS examiners closed several hundred audits that were initiated from
CTR data and, in the process, recommended additional taxes of $13.6 million.

The IRS has reported that CTR data are extremely useful in identifying and
pursuing individuals who are intentionally evading taxes or involved in other
financial crimes
In written congressional testimony, high-ranking IRS officials cited criminal convictions related
to CTRs and indicated that many of the crimes would have gone undetected had it not been for
the CTRs. For example, in one income tax evasion case, a review of CTRs filed on an individual
led investigators to identifying nearly half a million dollars of business income that was not
reported on the individual’s tax returns. The individual used the funds to purchase a home for
cash and securities worth hundreds of thousands of dollars.
In another tax evasion case, an individual wrote checks totaling several million dollars to an
associate’s company and later conspired with others in a scheme to intentionally structure
withdrawals in amounts that would not trigger the filing of currency reports. The cash
withdrawn from the accounts was subsequently used to pay workers in cash, thereby evading
employment taxes.


                                                                                           Page 3
                                                 Currency Report Data Can Be a
                                                  Good Source for Audit Leads



In yet another case involving tax evasion, an investigation was initiated after a financial
institution directly contacted IRS special agents and provided several questionable CTRs on a
business owner who was making cash deposits in amounts of less than $10,000. The
investigation ultimately identified approximately $620,000 of business income that was not
included on the individual’s income tax returns, which resulted in a tax loss to the Government
of $250,000.

CTRs also plays a role in IRS civil enforcement efforts through its audit process
As reflected in the following excerpts from IRS examiner guidelines and training materials, the
IRS considers currency transactions a high compliance risk area and recommends a number of
techniques that examiners can use to address these risks in planning and executing audits.
       •    Currency transactions can be an indicator of many compliance issues, and these
            indicators need to be specifically incorporated in the audit plan and compliance effort.
            The CBRS should be checked initially to determine the nature of the transactions that
            were netted up and matched to the return. Cash transactions over $10,000 just by nature
            are a very strong indication of possible underreporting of income and must be considered
            in every aspect of the audit.
       •    Casino transactions must be analyzed from the source of funds perspective. While
            gaming may be a net loss operation, the sources of the seed money must be addressed. It
            may be income of a nongaming source before it becomes a net loss.
       •    Any time an individual is using large amounts of currency personally or in the conduct of
            a trade or business, those transactions should be considered for their potential to be a
            source of unreported funds or transactions. In today’s environment where businesses
            could operate by never using hard currency, you must always consider, “why would the
            person(s) take the risk and incur the trouble of using large amounts of currency to
            conduct transactions?”
       •    While there are definite cash-intensive businesses such as gas stations, retail stores, and
            many service providers, there are just as many reasons not to conduct transactions in
            large amounts of currency, including ease of transaction, risk, attention, and sources of
            fund considerations.
While the IRS does not precisely track the number of audits in which CBRS data were accessed
or used, it does have statistics from returns that were selected for audit3 as a result of referrals
from BSA compliance checks.




3
    In this report, returns selected for audit include related returns.
                                                                                                 Page 4
                                           Currency Report Data Can Be a
                                            Good Source for Audit Leads



Currency Transaction Data May Be Useful to Pursue Additional
Potential Nonfilers and Underreporters
The IRS’ primary objective in selecting returns for audit is to promote the highest degree of
voluntary compliance on the part of taxpayers. To meet this objective, the IRS has developed a
number of sources from which it selects returns for audit. One important source the IRS has long
used to select returns for audit is the Discriminant Index Function (DIF) system, which calculates
and assigns a computer-generated DIF score for all individual returns based on their audit
potential. The higher the score, the greater the chance an audit will result in a material tax
change.
As we reported in August 2009,4 the SB/SE Division is increasingly taking advantage of the
DIF system to select individual tax returns for audit (see Figure 1). The increase is due, in large
part, to the IRS updating its DIF system with new compliance data from its National Research
Program and using this data to score individual tax returns.
         Figure 1: SB/SE Division’s Individual Tax Return Audit Closures
    by Revenue Agents5 and Tax Compliance Officers in Fiscal Years 2007–2009

                         DIF               Other              Total            Percentage         Percentage
    Fiscal Year        Initiated          Sources*            Audits              DIF               Other
       2007               81,834           141,872            223,706                  37 %               63%

       2008              103,302           139,241            242,543                  43%                57%

       2009              116,255           139,660            255,915                  45%                55%

      Totals             301,391           420,773            722,164                  42%                58%

* Other: Examinations can be initiated from a variety of sources, including potentially abusive transactions,
studies/research projects, referrals, and third-party document matching.
Source: Our analysis of closed examination data from the Audit Information Management System for
Fiscal Years 2007 through 2009.

The IRS also has at least 53 other sources (non-DIF) to select returns for audit. These non-DIF
sources typically involve specific types of suspected noncompliance and collectively produced
greater audit yields than DIF-initiated audits in terms of additional recommended taxes generated
on a per return basis. From Fiscal Years 2007 through 2009, SB/SE Division statistics show
examiners closed 420,773 audits initiated from non-DIF sources and recommended




4
  Potential Opportunities Exist to Enhance the Favorable Productivity Trends for Audits Initiated by the Updated
Return Selection Formulas (Reference Number 2009-30-105, dated August 5, 2009).
5
  See Appendix VI for a glossary of terms.
                                                                                                                Page 5
                                          Currency Report Data Can Be a
                                           Good Source for Audit Leads



$8.6 billion in additional taxes. This indicates that for each tax return audited from a non-DIF
source, examiners recommended an average of about $20,445 in additional taxes.6
These non-DIF source audits include those originated based on CTRs, and the statistics above
include 493 audits that generated $13.6 million (an average of $27,700 for each return audited)
as a result of referrals from compliance checks of CTRs. In addition, another 2,042 audits
generated $68 million from a project that involved auditing individuals with large aggregate
CTR amounts. By comparison, audits initiated under the updated DIF produced about $9,600 in
recommended additional taxes on a return basis from Fiscal Years 2007 through 2009.
Given the compliance risks associated with individuals dealing in cash and the substantial audit
yields involving CTRs, we used a sample of 100 individuals identified on CTRs for Tax Year
(TY) 2007 to test their usefulness as leads for potential nonfiler audits. From the 100 individuals
sampled, we estimate there are some 42,804 individuals who were involved in large cash
transactions and did not file tax returns for TY 2007. Our work also shows that CTRs may be
useful in identifying additional individuals for audits who are filing returns but underreporting
their income.

CTRs may be useful for pursuing additional taxpayers who are involved in large
cash transactions and not filing tax returns
To develop potential leads for nonfiler audits, we used a four-step process. First, we identified
individuals for which aggregate CTRs totaling at least $20,0007 were filed with the IRS in
TY 2007 by financial institutions and casinos and matched those to information on the IRS’
Individual Return Transaction File. The match identified 138,077 individuals without
corresponding tax returns for TY 2007. Second, we selected a statistical sample of 100 out of
the 138,077 potential nonfilers for review and identified 31 individuals who appeared to have
filing requirements for TY 2007, but had not been contacted by the IRS according to the
Individual Master File.
************************************1**************************************
***************************************************************************
***************************************************************************
***************************************************************************
***************************************************************************
***************************************************************************
**************************************.


6
  This average and those in the next two paragraphs may differ from those calculated using the figures presented
because the averages were calculated using the actual figures rather than the rounded figures presented here.
7
  We are not presenting any opinion that the minimum $10,000 requirement for CTR transactions be changed. Our
choice of $20,000 was simply a criterion used to determine the populations from which we selected our samples.
8
  We used Accurint software in our analysis, which aggregates public information such as property records, etc.
                                                                                                         Page 6
                                     Currency Report Data Can Be a
                                      Good Source for Audit Leads



In the third step, we determined the amount of taxes the 31 potential nonfilers may owe by
following the cash transaction analysis process IRS examiners use to obtain an estimate of an
individual’s income. The cash transaction analysis process is based on the assumption that
individuals pay a certain amount of money to cover their expenses, including basic living
expenses and, absent other information, should be reporting an income that is large enough to
cover the expenses. We used basic living expense estimates published by the Bureau of Labor
Statistics and other information, if available, in comparing an individual’s expenditures to their
income sources. If an individual’s expenditures exceed their income and the source to pay for
such expenditures cannot be explained, the excess represents potential unreported income.
For the final step, we used IRS procedures for preparing proposed assessments in situations
where it estimates the taxes owed and prepares a “substitute” return and found the 31 individuals
may owe $282,930 in delinquent taxes and $134,161 in penalties and interest. When projected to
the population of 138,077 potential nonfilers, our results indicate 42,804 potential nonfilers may
collectively owe as much as $576 million in delinquent taxes, penalties, and interest for
TY 2007. This projection is based on a 95 percent confidence level. We expect the number of
potential nonfilers to fall between 30,229 and 55,379, with amounts owed ranging between
$387,581,655 and $764,233,252.

CTRs may be useful to address additional individuals involved in large cash
transactions, but may be underreporting their income
To develop potential audit leads for individuals who filed returns but may have underreported
their income, we used a similar four-step process as we did with the nonfiler audit leads. We
first matched the Taxpayer Identification Numbers for individuals with aggregate CTRs totaling
at least $20,000 filed in TY 2007 by financial institutions and casinos to the IRS’ Individual
Return Transaction File. This match identified 463,354 individuals who reported less adjusted
gross income on their tax returns than the amounts reflected on their CTRs. After selecting a
statistically valid sample of 100 of the 463,354 individual returns for review, we used the cash
transaction analysis process and identified 17 individuals whose expenses were significantly
larger than the gross income they reported earning.
***********************************1****************************************
****************************************************************************
****************************************************************************
****************************************************************************
****************************************************************************
***************************************************************************
******************************.
Overall, our sample results indicate the 17 potential underreporters may owe $143,398 in
delinquent taxes and $20,250 in penalties and interest. When projected to the population of
463,354 individuals, our results indicate there are 78,770 potential underreporters who may owe

                                                                                             Page 7
                                     Currency Report Data Can Be a
                                      Good Source for Audit Leads



$758 million in additional taxes, penalties, and interest for TY 2007. The projection is based on
a 95 percent confidence level. We expect the number of potential underreporters that may owe
delinquent taxes to fall between 44,489 and 113,052, with the amounts owed ranging between
$409,298,600 and $1,107,238,717.

It is important to recognize that there can be reasons expenditures exceed
income on a tax return
Individuals who underreport their income or fail to file required returns can create unfair burdens
on honest taxpayers and diminish the public’s respect for the tax system. However, there are a
number of legitimate reasons an individual’s expenditures may exceed the income reported on
his or her return. For example, some individuals may have received loan proceeds or are
receiving financial help from relatives or friends. Still others may be paying their expenses from
savings accumulated in previous years. However, we do not know, without the IRS investigating
such items, if the potential underreporters owe additional taxes, penalties, and interest.
It is equally important to recognize the fact that just because individuals were involved in large
cash transactions does not mean they were required to file tax returns. This will similarly require
an IRS investigation to determine whether their incomes were large enough to require filing a
return, and making such a determination could prove challenging. The IRS typically has
third-party information reporting documents, such as wage statements, so it can quickly estimate
the taxes owed and prepare a “substitute” return for a nonfiler. We found very few third-party
information documents in IRS records that specifically show income sources for the nonfilers in
our sample results.
However, as we previously stated, the IRS does identify returns for audit from various sources.
The sources not related to the DIF system are typically developed from special projects where
the IRS uses its experience and statistics to explore and evaluate new approaches for addressing
potential areas of noncompliance. For example, some suspected areas of noncompliance within
various taxpayer segments are currently evaluated and managed through various Compliance
Initiative Projects within the IRS’ operating divisions. With years of experience to draw upon,
the IRS staff involved in these and other projects are well positioned to develop the support data
needed for deciding how much, if any, resources could be allocated to broadening the use of
currency reports in IRS compliance efforts.

Recommendation
Recommendation 1: The Director, Examination, SB/SE Division, should explore the
feasibility of making greater use of CTRs to pursue additional nonfilers and underreporters for
audit.
       Management’s Response: IRS management agreed with the recommendation and
       will evaluate opportunities during their work planning process to expand audit coverage

                                                                                            Page 8
                            Currency Report Data Can Be a
                             Good Source for Audit Leads



of nonfilers using CTR data. However, IRS management did not commit to exploring the
feasibility of making greater use of CTRs to pursue additional underreporters for audit.
As noted in the report, these are individuals who file tax returns but may have additional
sources of income that should have been reported. IRS management additionally stated
they did not agree with the outcome measure because of concerns over the selection
criteria used.
Office of Audit Comment: We are pleased that IRS management agrees with the
recommendation. However, we are surprised by the absence of a commitment to pursue
additional underreporters for audit given the potential revenue at stake. Regarding the
disagreement over the outcome measure, we maintain that the potential $1.3 billion of
increased revenue is a reasonable estimate considering the assumptions used to make the
estimate. Moreover, the accuracy and validity of sampling methodologies and estimate
were confirmed by a statistician.




                                                                                   Page 9
                                              Currency Report Data Can Be a
                                               Good Source for Audit Leads



                                                                                          Appendix I

           Detailed Objectives, Scope, and Methodology

The objectives of this review were to determine the success the SB/SE Division is achieving in
using currency reports to address nonfilers and underreporters and if additional steps could be
taken to further enhance this success. Unless otherwise noted, our limited tests of the reliability
of data obtained from various IRS systems did not identify any material errors. We tested the
reliability of the data by scanning the data received for blank, incomplete, illogical, or improper
data. In addition, we traced a judgmental sample for each data set to the source IRS files to
ensure accuracy. To accomplish our objective, we:
I.         Determined whether the IRS effectively uses currency reports provided by third parties to
           identify individuals who are not reporting all of their income for tax purposes.
           A. Identified what processes are in place for the IRS to use CTR data to identify
              unreported income.
           B. Analyzed CTRs, information returns, and individuals’ tax records on IRS systems and
              public records available through Accurint1 to determine whether there is a potential
              for identifying unreported income.
                1. Identified whether the taxpayers who had high-dollar CTRs reported on them
                   from financial institutions and casinos had filed tax returns and reported sufficient
                   income to account for the currency transactions.
                2. Analyzed and compared the CTR data against income data on the Individual
                   Return Transaction File2 to identify potential for underreporting of income. We
                   chose individuals with combined CTRs totaling $20,000 or more for TY 2007.
                   Two factors affected our data analysis.
                    •    The TY 2007 CTR data did include some CTRs dated late in TY 2006. This
                         was due to how the Information Returns Master File processes the CTRs. The
                         TY 2006 CTRs were not considered in any tax computations on our cases.
                         This does not affect the results shown in our analysis.
                    •    Due to issues with the accuracy of validity digits on the Individual Return
                         Transaction File, we limited our analysis of nonfiler cases to individuals with
                         valid Taxpayer Identification Numbers.


1
    Software that aggregates public information such as property records, etc.
2
    See Appendix VI for a glossary of terms.
                                                                                                 Page 10
                                           Currency Report Data Can Be a
                                            Good Source for Audit Leads



             3. Used the available income, CTR, and other expense data to identify the amount of
                income reasonably needed to be able to meet estimated personal living expenses.
             4. Selected a statistical sample of 100 taxpayers from a population of
                463,354 taxpayers who had filed tax returns in TY 2007 with $20,000 or more of
                CTR transactions reported and with adjusted gross income less than the total CTR
                amount. The expected error rate was 5 percent and precision, as computed based
                on our sample analysis using a 95 percent confidence level, was 7.40 percent.
             5. Selected a statistical sample of 100 taxpayers from a population of
                138,077 nonfiling taxpayers with CTRs reported of at least $20,000 in TY 2007.
                The expected error rate was 5 percent and precision, as computed based on our
                sample analysis using a 95 percent confidence level, was 9.11 percent.
             6. Analyzed the filing and payment compliance history for both samples of
                taxpayers to identify (a) any tendencies towards noncompliance and unreported
                income and (b) whether the IRS has taken any enforcement actions on these
                taxpayers for TY 2007.
             7. Used variable sampling techniques to quantify the potential unreported and
                underreported income, taxes, penalties, and interest for the cases in both samples
                with a 95 percent confidence level.3
             8. Confirmed the accuracy and validity of our sampling methodologies and
                projections with an outside statistician.
II.     Determine whether the IRS has effectively implemented correction action proposed in
        response to recommendations made in the prior report.4
        A. Identified corrective action that was taken as a result of the recommendations in the
           report and discussed this with SB/SE Division personnel.
        B. Obtained data from the Fraud/BSA Program showing the case results from BSA
           referrals for FYs 2007 and 2008.
        C. Extracted Audit Information Management System data for FYs 2007 through 2009 to
           validate the information provided from the Fraud/BSA Program and to identify actual
           case results generated from the referrals.




3
  For the filer sample, the average adjustment was $1,636.48 and the standard deviation was $3,843.03. For the
nonfiler sample, the average adjustment was $4,170.92 and the standard deviation was $6,961.42.
4
  The Use of Anti-Money Laundering Referrals and Currency Transaction Information in the Income Tax
Examination Process Could Be Improved (Reference Number 2004-30-074, dated March 30, 2004).
                                                                                                         Page 11
                                   Currency Report Data Can Be a
                                    Good Source for Audit Leads



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective:
      IRS operating procedures and systems related to the receipt, editing, and input of CTR
       documents for processing to IRS systems. We did a limited evaluation of these controls
       by observing the processes and interviewing management.
      IRS policy and procedures for determining which individuals identified in the BSA
       examination process are referred for income tax audits. We did a limited evaluation of
       these controls by reviewing policy and procedures, interviewing management, and
       reviewing documentation for cases referred.




                                                                                        Page 12
                                  Currency Report Data Can Be a
                                   Good Source for Audit Leads



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Steven Stephens, Audit Manager
Alan Lund, Lead Auditor
David Hartman, Senior Auditor
Kristi Larson, Senior Auditor
Craig Pelletier, Senior Auditor
Julia Tai, Senior Auditor
William Tran, Senior Auditor
Richard Hillelson, Information Technology Specialist




                                                                                      Page 13
                                  Currency Report Data Can Be a
                                   Good Source for Audit Leads



                                                                            Appendix III

                         Report Distribution List

Commisioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Fraud/BSA Program SE:S:F/BSA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 14
                                           Currency Report Data Can Be a
                                            Good Source for Audit Leads



                                                                                                Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
    Increased Revenue – Potential; 121,574 taxpayers owe $1.3 billion1 in additional taxes,
    penalties, and interest (see page 5). This potential outcome does not include amounts (cost)
    that would offset the benefit due to reallocating resources from other IRS audits and will be
    substantially less if resources are available to only focus on the most egregious cases. In
    computing the potential outcome, we assumed that there were no legitimate reasons for the
    discrepancies and therefore they would result in the assessment of the additional income
    taxes, self-employment taxes, and interest described in this appendix.

Methodology Used to Measure the Reported Benefit:
Outcome calculation methodology for the nonfiler exception cases:
    •   We selected a statistical sample of 100 taxpayers from a population of 138,077 potential
        nonfilers that had CTRs reporting at least $20,000 during TY 2007.
    •   We identified 31 individuals who appear to have a filing requirement for TY 2007, but
        had yet to be contacted by the IRS. These individuals also had a negative cash flow of at
        least $25,000 based on a cash transaction analysis, not including the CTR amounts.
    •   Based on our sample error rate (31/100), we calculated the number of potential nonfilers
        in the total nonfiler population that would: 1) appear to have a filing requirement for
        TY 2007 but had yet to be contacted by the IRS and 2) had a negative cash flow of at
        least $25,000. [138,077 x (31/100) = 42,804]2
    •   To estimate the potential amount of delinquent taxes, penalties, and interest these
        31 potential nonfilers may owe, we used the Examination function’s cash transaction


1
  This number is rounded. The actual figure is $1,334,176,111, which is the sum of $575,907,453 for nonfilers and
$758,268,658 for underreporters. We are 95 percent confident that the estimated total amount owed is between
$937,632,661 and $1,730,719,561.
2
  We are 95 percent confident that there are between 30,229 and 55,379 (9.11 percent precision) potential nonfilers
that appear to have a filing requirement and have not been contacted by the IRS.
                                                                                                           Page 15
                                                Currency Report Data Can Be a
                                                 Good Source for Audit Leads



         analysis process to estimate the annual expenses and minimum income needed for each
         taxpayer. Based on this analysis, we estimate that these 31 nonfilers in our sample may
         owe $282,930 in delinquent taxes and $134,161 in penalties and interest.
         Specific computations:
                 Additional Taxes Due .........................................................$282,930
                      o Includes Self-Employment Tax ......$177,649
                 Penalties Applied ................................................................$106,762
                      o Failure to File ....................................$63,659
                      o Failure to Pay ....................................$33,952
                      o Estimated Tax .....................................$9,151
                 Interest...................................................................................$27,399
                 Total Additional Tax, Penalty, and Interest Due ................$417,0923
    •    We calculated the average additional taxes, penalties, and interest for all 100 taxpayers in
         our sample. [$417,092/100 = $4,170.92]
    •    We then multiplied the number of nonfilers in the total nonfiler population by the average
         taxes, penalties, and interest due from each sample case to get the total amount of
         delinquent taxes, penalties, and interest owed by the total nonfiler population for
         TY 2007. [138,077 x $4,170.92 = $575,907,453]4
Outcome calculation methodology for the filer exception cases:
    •    We selected a random sample of 100 taxpayers from a population of 463,354 filers that
         had CTRs reporting at least $20,000 during TY 2007 and had adjusted gross income
         reported on their TY 2007 tax returns that was less than the total CTR amounts.
    •    We identified 17 filers that reported income that was insufficient to cover their basic
         living expenses as determined by using a cash transaction analysis. Each of the taxpayers
         had a negative cash flow of at least $25,000, not including the CTR amounts.
    •    Based on our sample error rate (17/100), we calculated the number of filers in the total
         filer population that would have claimed income that was insufficient to cover their basic
         living expenses by at least $25,000. [463,354 x (17/100) = 78,770]5


3
  Total adjusted due to rounding to whole dollars.
4
  Total adjusted due to rounding to whole dollars. Using the computed standard deviation of $6,961.42 for our
sample, we are 95 percent confident that the total amount owed by the projected nonfilers (exception cases) will be
between $387,581,655 and $764,233,252.
5
  We are 95 percent confident that the number of filers in the total filer population that would have claimed income
that was insufficient to cover their basic living expenses by at least $25,000 will be between 44,489 and 113,052
(7.40 percent precision).
                                                                                                                       Page 16
                                                Currency Report Data Can Be a
                                                 Good Source for Audit Leads



    •   To estimate the potential amount of additional taxes, penalties, and interest these 17 filers
        may owe the IRS, we used the IRS’ cash transaction analysis process to estimate the
        annual expenses and minimum income needed for each taxpayer. Based on this analysis,
        we estimate that these 17 filers in our sample may owe $143,398 in additional taxes and
        $20,250 in penalties and interest.
        Specific computations:
                Additional Taxes Due .........................................................$143,398
                     o Includes Self-Employment Tax ........$80,109
                Penalties Applied ....................................................................$6,363
                     o Failure to File ......................................$6,363
                Interest...................................................................................$13,887
                Total Additional Tax, Penalty, and Interest Due ................$163,648
    •   We calculated the average additional taxes, penalties, and interest for all 100 taxpayers in
        our sample. [$163,648/100 = $1,636.48]
    •   We then multiplied the number of filers in the total filer population by the average taxes,
        penalties, and interest due from each sample case to get the total amount of delinquent
        taxes, penalties, and interest owed by the total filer population for TY 2007. [463,354 x
        $1,636.48 = $758,268,658]6




6
 Using the computed standard deviation of $3,843.03 for our sample, we are 95 percent confident that the total
amount owed by the projected filers (exception cases) will be between $409,298,600 and $1,107,238,717.
                                                                                                                      Page 17
                                        Currency Report Data Can Be a
                                         Good Source for Audit Leads



                                                                                                    Appendix V

                  Bank Secrecy Act Forms Processed
                   by the Internal Revenue Service

This appendix, as published on IRS.gov, lists the various currency reports, descriptions of the
reporting requirements, and the number filed in Calendar Year 2008.

                                                                                                        Filed in
                                                                                                     Calendar Year
        Report                                        Requirements                                       2008

  Currency Transaction   Filed by financial institutions that engage in a currency transaction in      15,449,549
     Report (CTR)        excess of $10,000.

  Currency Transaction   Filed by a casino to report currency transactions in excess of $10,000.        452,075
 Report Casino (CTRC)
  (includes Form 8362
      & Form 8852)

   Report of Foreign     Filed by individuals to report a financial interest in or signatory            349,667
  Bank and Financial     authority over one or more accounts in foreign countries if the
   Accounts (FBAR)       aggregate value of these accounts exceeds $10,000 at any time
                         during the calendar year.

    IRS Form 8300,       Filed by persons engaged in a trade or business who, in the course of          173,345
    Report of Cash       that trade or business, receives more than $10,000 in cash in one
    Payments Over        transaction or two or more related transactions within a twelve month
  $10,000 Received in    period.
  a Trade or Business

   Suspicious Activity   Filed on transactions or attempted transactions involving at least             733,543
     Report (SAR)        $5,000 that the financial institution knows, suspects, or has reason to
                         suspect the money was derived from illegal activities. Also filed when
                         transactions are part of a plan to violate federal laws and financial
                         reporting requirements (structuring).
   Suspicious Activity   Filed on transactions or attempted transactions if it is conducted or          11,162
 Report Casino (SARC)    attempted by, at, or through a casino, and involves or aggregates at
                         least $5,000 in funds or other assets, and the casino/card club knows,
                         suspects, or has reason to suspect that the transactions or pattern of
                         transactions involves funds derived from illegal activities. Also filed
                         when transactions are part of a plan to violate federal laws and
                         transaction reporting requirements (structuring).




                                                                                                          Page 18
                                        Currency Report Data Can Be a
                                         Good Source for Audit Leads




                                                                                                         Filed in
                                                                                                      Calendar Year
       Report                                        Requirements                                         2008

Registration of Money   Each Money Services Business (MSB), except one that is a money                   21,263
 Services Business      services business solely because it serves as an agent of another
       (RMSB)           MSB, must register.

 Suspicious Activity    Filed on transactions or attempted transactions if it is conducted or            531,763
  Report by Money       attempted by, at, or through a MSB, involving or aggregating funds or
Services Businesses     other assets of at least $2,000 in funds or other assets, and the MSB
      (SARM)            knows, suspects, or has reason to suspect that the transactions or
                        pattern of transactions involves funds derived from illegal activities.
                        Also filed when transactions are part of a plan to violate federal laws
                        and transaction reporting requirements (structuring) or when the
                        transaction has no business or apparent lawful purpose and the MSB
                        knows of no reasonable explanation for the transaction after
                        examining the available facts. When transactions are identified from a
                        review of records of money orders or traveler’s checks that have been
                        sold or processed, an issuer of money orders of traveler's checks shall
                        be required to report a transaction or a pattern of transactions that
                        involves or aggregates funds or other assets of at least $5000.

 Suspicious Activity    Filed on transactions, or attempted transactions, if it is conducted by,         15,105
   Report by the        at, or through a broker-dealer, it involves aggregates funds or other
Securities & Futures    assets of at least $5,000, and the broker-dealer knows, suspects, or
    Industries          has reason to suspect that the transaction involves funds derived from
                        illegal activities or is intended or conducted in order to hide or disguise
                        funds or assets derived from illegal activity. Also filed when
                        transactions are designed, whether through structuring or other
                        means, to evade filing requirements. Also filed when transaction has
                        no business or apparent lawful purpose or is not the sort in which the
                        particular customer would normally be expected to engage, and the
                        broker-dealer knows of no reasonable explanation for the transaction
                        after examining the available facts. Also filed when the transaction
                        involves the use of the broker-dealer to facilitate criminal activity.

   Designation of       Used by bank or other depository institution to designate an eligible            52,149
   Exempt Person        customer as an exempt person from currency transaction reporting
                        rules.




                                                                                                           Page 19
                              Currency Report Data Can Be a
                               Good Source for Audit Leads



                                                                           Appendix VI

                         Glossary of Terms

Audit Information        A computer system used by the SB/SE Division Examination
Management System        function and others to control returns, input assessments and
                         adjustments to the Master File, and provide management
                         reports.
Individual Master File   The IRS database that maintains transactions or records of
                         individual tax accounts.
Individual Return        A database the IRS maintains that contains information on the
Transaction File         individual tax returns it receives.
Information Returns      An IRS database containing all information returns
Master File              transcribed or electronically received by the IRS. It contains
                         data about both the payer and the payee from various forms,
                         including Mortgage Interest Statements (Form 1098) and
                         Wage and Tax Statements (Form W-2), among others.
Master File              The IRS database that stores various types of taxpayer
                         account information. This database includes individual,
                         business, and employee plans and exempt organizations data.
Revenue Agent            An employee in the Examination function who conducts
                         face-to-face examinations of more complex tax returns such
                         as businesses, partnerships, corporations, and specialty taxes
                         (e.g., excise tax returns).
Tax Compliance           An employee in the Examination function that primarily
Officer                  conducts examinations of individual taxpayers through
                         interviews at IRS field offices. The position title was changed
                         in 2002 from Tax Auditor to Tax Compliance Officer.




                                                                                      Page 20
              Currency Report Data Can Be a
               Good Source for Audit Leads



                                              Appendix VII

Management’s Response to the Draft Report




                                                    Page 21
Currency Report Data Can Be a
 Good Source for Audit Leads




                                Page 22
